AAAAAAAAAAAAAAA




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audit Services




  Audit Report

 Quality Assurance Standards for the
 Integrated Control Network at the
 Hanford Site's Waste Treatment
 Plant




 DOE/IG-0764                                    May 2007
                               Departmsrrt of Energy
                                   Washington, DC 20585

                                   M a y 4,         2007


MEMORANDUM FOR THE SECRETARY

FROM:                      &*
                           Greg ry H. Friedman
                           Inspector General

SUBJECT:                   INFORMATION: Audit Report on "Quality Assurance
                           Standards for the Integrated Coiltrol Network at the Hanford
                           Site's Waste Treatment Plant"



Ii1 oneof Ihe lai-gcst and illost impoi-krit of its environmental remediation projects, the
Department of Energy is constructing a Waste Treatment Plant at its Hanford,
Washington site. The $12.2 billion Plant is designed to treat and prepare for disposal 53
million gallons of radioactive and chemically hazardous waste. In December 2000, the
Department awarded a contract to Bechtel National, Inc. (Bechtel National) to design,
build, and commission the Plant to immobilize radioactive waste into a stable form of
glass. Under current plans, the resulting high-level waste is to be disposed of in the
Office of Civilian Radioactive Waste Management's geologc repository.

Because of the nature of the waste stream, the Waste Treatment Plant has been
designated a Caregory I1 iluclear l ' d ~ i i i t ~AS
                                                    . s ~ i h;i, i l i ~ sit l l ~qliality
                                                                                   ~t      assurmcc
standards for nuclear facilities, which significantly exceed those required for commercial
facilities and equipment. The Plant design called for the installation of a computerized
integrated control network to monitor the operation of a number of key processes. In
November 2001, Bechtel National awarded a subcontract to procure the control systen~,
an essential component of the integrated network. This system provides central
communications for the Plant's pumps, valves, and instruments, and the interfaces for
operators to control Plant activities. The objective of the audit was to determine if the
integrated control network met appropriate quality assurance standards.

RESULTS OF ALDIT

The Waste Treatment Plant control system acquired by the Department did not meet
applicable quality assurance standards--specifically, those required for "an activity
affecting the immobilization of radioactive high-level waste." Bechtel National's
specifications, which were approved by the Department, required the installation of a
control system that met quality assurance standards for nuclear facilities, or equivalent
standards. Yet, Bechtel National failed to impose parallel requirements on the
subcontractor which supplied the control system. As a result, the system does not meet
the stringent procedures, plans, specifications, or work practices associated with nuclear
quality standards. Under the circumstances, we concluded that the Department cannot be
sure that the Plant's current system is suitable for processing nuclear waste.



                                  @     Printed with soy ink on recycled papel
In examining these issues, we noted a number of problems in the process used by Bechtel
National to procure the control system. Specifically, Bechtel National had not:

   o    Perfonned a supplier evaluation to ensure that the subcontractor used appropriate
        quality assurance standards given the system's functions;

   'P   Clearly set forth quality assurance standards to be applied during the procurement
        process; and,

   s    Consistently defined quality levels that were to be used for the Plant.

We concluded, as well, that Department officials had not taken necessary steps to assure
that Bechtel National's actions regarding the control system were consistent with Agency
quality assurance standards. In fact, the Department was unaware of the nuclear quality
assurance standards issue prior to our review.

The Department needs to address concerns that the control system will not perform as
needed and that quality assurance shortcomings could potentially impact the operation of
other Waste Treatment Plant systems. These issues could significantly impact the
schedule, cost and safety of the project. Depending on the results of further testing, the
Department may have to commit substantial additional resources to either enhance the
existing control system to ensure that it meets the appropriate quality assurance
standards, or procure a new control system specifically designed to meet such standards.

The audit also disclosed that there was confusion within the Department as to whether its
recently adopted quality assurance standards for safety software applied to the Plant's
integrated control network. In Fiscal Year 2005, the Department issued Order 4 14.1i',
Quality Assu1-awe. Under the Order, safety software development is to meet the quality
assurance standards for nuclear facilities, or equivalent standards, utilizing a graded
approach, rather than the standards followed for commercial materials. To date, neither
the Department nor Bechtel National has determined whether the internal control
network's functions comprise safety software as defined by the Order. Toward the end of
our audit, we were informed that the Department was undertaking a number of actions to
review the applicability of Order 414. lC, Quality Assuralzce, to the integrated control
network as well as to other systems at the Waste Treatment Plant.

To address the concerns raised during our audit, we recommended that senior
Environmental Management officials conduct necessary tests to ensure that the control
system for the integrated control network at the Waste Treatment Plant meets appropriate
quality assurance standards; place significantly greater attention on the administration of
the Bechtel National contract with emphasis on a review of Bechtel National's
procurement system; and, determine if and the extent to which Departmental Order
414.1C applies to the integrated control network.

MANAGEMENT REACTION

Management, in responding to a draft of this report, indicated that it was reviewing
Bechtel National's engineering judgments regarding (1) the quality assurance
classification of the control system for integrated co~ltrolnetwork and (2) \vllether the
systelll will meet Office of Civilian Radioactive Waste Management's waste acceptance
requirellleiits for the repository. It further stated that Bechtel National will be required to
ensure that the integrated control network meets recently imposed nuclear safety and
quality assurance standards.

The actions proposed by management are responsive to our recommendations.
Management's comments and our detailed response are summarized in the body of the
repost.

Attachment

cc: Deputy Secretary
    Acting Under Secretary of Energy
    Assistant Secretary, Office of Environmental Management
    Chief of Staff
    Manager, Office of River Protection
REPORT ON QUALITY ASSURANCE STANDARDS FOR THE
INTEGRATED CONTROL NETWORK AT THE HANFORD SITE'S
WASTE TREATMENT PLANT



TABLE OF
CONTENTS


  Standards for the Integrated Control Network at the Waste Treatment Plant

  Details of Finding                                                          1

  Recommendations and Comments                                                4


  Appendices

   1. Objective, Scope, and Methodology                                       7
STANDARDS FOR THE INTEGRATED CONTROL NETWORK AT THE
WASTE TREATMENT PLANT
Background          In November 2001, Bechtel National issued a purchase order to
                    procure a control system for the integrated control network at the
                    Waste Treatment Plant (Plant). The integrated control network is
                    an automated system that monitors the quality and safety of
                    systems and processes of the Plant. The control system, which is a
                    critical component of the integrated control network, monitors the
                    status of pumps, mixers, and flow rates of the waste through the
                    treatment process. Bechtel National identified the integrated
                    control network as affecting the quality of immobilized high-level
                    radioactive waste.

                    Departmental Orders require the establishment of quality assurance
                    programs over systems and operations. Bechtel National, in
                    implementing the Department's quality assurance directives,
                    concluded that the control system needed to meet quality assurance
                    standards for nuclear facilities or equivalent because it affected the
                    quality of immobilized high-level waste.

Application of      The control system ultimately procured by Bechtel National did
Quality Assurance   not meet the required quality assurance standards. When Bechtel
Standards           National issued the Request for Proposal, the specification required
                    that the control system meet quality assurance standards for
                    nuclear facilities. However, after the bids were received and the
                    proposals evaluated, it was determined that none of the proposers
                    had a system that could meet quality assurance standards for
                    nuclear facilities, or equivalent standards. During the acquisition
                    period, a change was being implemented in Bechtel National’s
                    quality assurance process which permitted the acquisition of
                    certain systems from commercial suppliers. This change in
                    procurement requirements was approved by the Department.
                    Based on the contractor's interpretation of the revised
                    requirements, Bechtel National awarded the control system
                    contract to a commercial supplier. Bechtel National did not seek
                    other avenues to acquire software which met nuclear facility
                    standards, or equivalent internationally recognized standards.

                    Although Bechtel National's revised quality assurance procedures
                    allowed commercial materials in certain operations, the
                    procurement of a commercial control system did not satisfy the
                    requirement that items and services affecting the quality of
                    immobilized high-level waste meet nuclear facility quality
                    assurance standards. This higher standard was necessary to satisfy
                    the Office of Civilian Radioactive Waste Management's
                    (OCRWM) quality assurance requirements for disposing of
                    immobilized high-level waste in its proposed geologic repository.



Page 1                                                               Details of Finding
Procurement   Inadequate Federal contract administration practices and
Practices     weaknesses in Bechtel National's procurement process contributed
              to numerous problems in the procurement of the control system.
              Specifically, the Department failed to adequately monitor Bechtel
              National's procurement of the control system as shown by its
              approval of the contract award for a system that did not meet
              applicable quality standards. We found no evidence during our
              review that indicated the Department raised questions about the
              suitability of the commercial grade control system for the Plant's
              function of producing immobilized high-level waste.

              We noted that Bechtel National had not (1) performed a supplier
              evaluation; (2) clearly set forth quality assurance standards to be
              followed; (3) consistently applied quality assurance requirements;
              and, (4) appropriately documented key elements in the
              procurement process.

                                      Supplier Evaluation

              Bechtel National did not perform an evaluation of the control
              system supplier whose system could affect the quality of waste
              generated by the Plant. In so doing, Bechtel National incurred the
              risk of significant cost and schedule overruns in the event the
              integrated control network failed to perform as intended. A
              supplier evaluation ensures the application of a graded approach to
              the quality criteria adhered to by the supplier. Bechtel National's
              failure to perform the supplier evaluation conflicted with the
              Department's quality assurance requirements.

                                         Bid Selection

              Also, we found no evidence to indicate that the individuals
              involved in selecting the subcontractor were aware that bidders
              needed to meet quality assurance standards applicable to nuclear
              facilities. This may have occurred, in part, because Bechtel
              National repeatedly revised documents supporting the acquisition
              which obscured the requirement that nuclear facility standards
              needed to be applied for the system.

                       Consistent Application of Quality Requirements

              Program and procurement personnel involved in the acquisition, in
              addition, appear not to have understood that if the network, as a
              whole, must meet nuclear standards, then component parts of the
              network -- including the control system – must also meet these
              standards. Currently, Bechtel National applies only commercial



Page 2                                                        Details of Finding
               quality assurance standards to the control system, a key component
               and base layer of the integrated control network, even though the
               network as a whole is required to meet the higher quality assurance
               standards applicable to nuclear facilities.

                                        Procurement Files

               Other weaknesses were noted in Bechtel National's procurement
               process. For example, under the procurement requirement, the
               subcontractor of the control system was to provide a representation
               concerning quality assurance matters. We found that this
               document was erroneously completed by a Bechtel National
               employee. Therefore, Bechtel National had no formal commitment
               by the subcontractor to meet applicable quality program
               requirements as specified in the engineering specification and
               purchase order. In addition, many key procurement documents
               were undated, limiting our ability to develop a timeline of the
               sequence of events. The timeline would have assisted us in
               determining of weaknesses in the procurement system.

                                              ----

Additional     The Department revised its standard for safety software in 2005.
Requirements   Based on this revision, the Department mandated that "software
               that performs a control function necessary to provide adequate
               protection from nuclear facility or radiological hazards" must meet
               quality assurance standards for nuclear facilities, or an equivalent
               standard. However, the Department has not yet determined
               whether the control system software must meet quality assurance
               requirements for safety software.

               Although the control system is not the Plant's primary safety
               system, it provides central communications for the Plant's pumps,
               valves, and instruments, and the interfaces for operators to control
               Plant activities, activities associated with the control of nuclear
               hazards. For example, the autosampling control system, a
               component of the integrated control network, is designed to limit
               personnel exposure and maintains alarm and draining capabilities
               in the event of a malfunction. According to a Departmental
               software quality assurance official, working with the Office of
               Inspector General on this review, functions performed by the
               integrated control network comprise safety software as defined in
               the Directive. Other quality assurance officials stated that further
               review is necessary before they could conclusively determine
               whether the Directive applies to functions of the integrated control
               network. Given the findings in this report, the quality assurance



Page 3                                                         Details of Finding
                  standards applicable to the control system need to be examined
                  from both an immobilized waste and a safety software perspective.

Effect            The Department is at risk that the control system will not perform
                  as needed thereby impacting the schedule, cost and safety of the
                  $12 billion project. Additionally, the Department spent more than
                  $13 million for the control system that was not acceptable for high-
                  level waste immobilization operations of the Plant. Depending on
                  the results of further testing of the system, the Department may be
                  required to spend additional resources to either ensure that the
                  control system meets the appropriate quality assurance standards,
                  or to procure another control system that meets those standards.


RECOMMENDATIONS   We recommend that the Assistant Secretary for Environmental
                  Management:


                     1. Ensure that the integrated control network for the Plant
                        meets appropriate quality assurance standards for its
                        immobilization of high-level waste functions;

                     2. Determine whether the quality assurance requirements for
                        safety software apply to the integrated control network;
                        and,

                     3. Direct the Office of River Protection to provide more
                        stringent oversight of Bechtel National's procurement
                        process, including a review of the adequacy of Bechtel
                        National's procurement system.


MANAGEMENT        Management stated that it is evaluating Bechtel National's
REACTION          judgments made at the time of the procurement regarding the
                  appropriate quality assurance classification of the integrated
                  control network. Management indicated that it planned to provide
                  more rigorous oversight of Bechtel National's procurement process
                  and is initiating a review of Bechtel National's procurement
                  system. Management also stated that it had initiated a separate
                  review of both its and Bechtel National's quality assurance
                  programs to determine whether appropriate quality assurance
                  standards are implemented and whether systemic issues exist that
                  need to be addressed. Finally, Management indicated that it will
                  direct Bechtel national to ensure that the integrated control
                  network meets current contractual nuclear safety and quality
                  assurance standards.



Page 4                                        Recommendations and Comments
           As background, management indicated that during the 2000-2001
           timeframe, it encouraged Bechtel National to move from a
           compliance philosophy based on process control to a sampling
           strategy in order to confirm the quality of the waste product.
           Management thought that by moving towards a sampling strategy
           it would significantly reduce the amount of equipment categorized
           as affecting the quality of immobilized high-level waste. In
           September 2002, the Department directed Bechtel National to
           apply the sampling strategy, increasing the likelihood that the
           integrated control network would no longer be classified as waste
           quality affecting.

           Based on the Department's direction, Bechtel National reclassified
           the integrated control network from affecting the quality of high-
           level waste to "To Be Determined." Management acknowledged
           that a non-conservative approach accepting cost and schedule risk
           drove the decision to purchase the control system as commercial
           material. Management also stated that Bechtel National developed
           a recovery plan in the 2001 timeframe, although not documented,
           in the event the control system was later determined to have a
           function essential to the high-level waste form function.

           Management acknowledged that it is still not certain whether
           component systems of the integrated control network are currently
           waste quality affecting. Additionally, management stated that it
           did not believe the internal control network comprise safety
           software, as defined by the Department's Directive.

AUDITOR    As stated in the body of the report, the procurement of the
RESPONSE   control system as commercial material did not meet the quality
           assurance standards required for an activity affecting the quality of
           the Plant's immobilization of high-level waste at the time of
           procurement. While changes to Bechtel National's quality
           assurance procedures allowed the use of commercial materials for
           non-safety systems, the revised procedures still required that items
           and services affecting the quality of immobilized high-level waste
           meet quality assurance standards for nuclear facilities. Further,
           although Bechtel National reclassified the waste affecting function
           of the system as "To Be Determined" in 2001, the company
           subsequently identified components of the integrated control
           network in its 2004 Determination of Immobilized High-Level
           Waste Product Quality-Affecting Items and Activities list. As
           such, the control system procurement should have been subject to
           nuclear quality assurance standards since the procured control
           system was and continues to be identified as a key component of
           the control network.



Page 5                                                             Comments
         Further, we are concerned that the Department has not reviewed
         the control system for compliance with the Departmental Directive
         on safety software. Establishing the appropriate quality assurance
         level for the software is important because the integrated control
         network provides central communications for the Plant. For
         example, the autosampling control system, a component of the
         integrated control network, controls an alarm function and draining
         capability in response to a malfunction.

         Despite our disagreement on certain points, the actions initiated or
         planned by Management, if fully implemented, are responsive to
         concerns raised in the report.




Page 6                                                           Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine if the integrated
              control network met appropriate quality assurance standards.


SCOPE         We conducted the audit from April 2006 to March 2007. The
              scope of the audit covered the Waste Treatment Plant's integrated
              control network.


METHODOLOGY   To accomplish the audit objective, we:

                 •   Relied on technical assistance and analyses provided by a
                     software quality assurance expert from the Department of
                     Energy's (Department) Office of Environmental
                     Management;

                 •   Obtained and reviewed planning, quality control, and
                     procurement documents for the Waste Treatment Plant;

                 •   Researched Federal and Departmental regulations;

                 •   Analyzed and assessed Bechtel National, Inc.'s (Bechtel
                     National) internal controls over its procurement of the
                     integrated control network;

                 •   Analyzed the Bechtel National contract with the Office of
                     River Protection; and,

                 •   Interviewed key personnel in the Office of Environmental
                     Management, Office of Price-Anderson Enforcement,
                     Office of River Protection, and Bechtel National.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the audit objective.
              We assessed performance measures established under the
              Government Performance and Results Act of 1993 related to the
              Office of River Protection's Waste Treatment Plant at the Hanford
              Site. Because our review was limited, it would not necessarily
              have disclosed all internal control deficiencies that may have
              existed at the time of our audit. We did not conduct a reliability
              assessment of computer-processed data because only a limited
              amount of computer-processed data was used during the audit.

              We held an exit conference with management on March 1, 2007.



Page 7                                    Objective, Scope, and Methodology
                                                                    IG Report No. DOE/IG-0764

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
